VISA PLATINUM/VISA PLATINUM REWARDS/
VISA PLATINUM CASH BACK
F1

APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

0.00%
F2

Introductory APR for a period of F3
six billing cycles .

After that your APR will be
your creditworthiness.

9.90%
F4

18.90%
to F5

based on

Visa Platinum Rewards

0.00%
F6

Introductory APR for a period of F7
six billing cycles .

After that your APR will be
your creditworthiness.

11.90% to F9
20.90%
F8

based on

Visa Platinum Cash Back

0.00%
F10

Introductory APR for a period of F11
six billing cycles

.

10.49% to F13
19.49%
F12

APR for Balance Transfers

After that your APR will be
based on
your creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum
0.00%
F14
Introductory APR for a period of F15
.
six billing cycles

9.90%
After that your APR will be F16
creditworthiness.

18.90% based on your
to F17

Visa Platinum Rewards
0.00%
F18
Introductory APR for a period of F19
six billing cycles

.

11.90% to F21
20.90% based on your
After that your APR will be F20
creditworthiness.
Visa Platinum Cash Back
0.00%
F22
Introductory APR for a period of F23
six billing cycles

APR for Cash Advances

.

10.49% to F25
19.49% based on your
After that your APR will be F24
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Platinum
9.90%
18.90% when you open your account, based on your
F26
to F27
creditworthiness.
Visa Platinum Rewards
11.90%
20.90% when you open your account, based on your
F28
to F29
creditworthiness.
Visa Platinum Cash Back
10.49%
19.49% when you open your account, based on your
F30
to F31
creditworthiness. This APR will vary with the market based on the
Prime Rate.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DILFZ8 (MXC403 CCM003)-e

SEE NEXT PAGE for more important information about your account.

How to Avoid Paying Interest on Purchases

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

$5.00
F32
greater
2.00%
F34

3.00%
or F33

of the amount of each cash advance, whichever is

of each transaction in U.S. dollars

$20.00
Up to F35
$25.00
Up to F36

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Promotional Period for Introductory APR: The Introductory APR for purchases will apply to transactions posted to your
account during the first F37
following issuance of your card. The Introductory APR for balance transfers
six billing cycles
will apply to transactions posted to your account until F38
the seventh billing cycle .
Effective Date:
The information about the costs of the card described in this application is accurate as of F39
December 30, 2015 .
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Document Copy Fee
Rush Fee
Emergency Card Replacement Fee
Card Recovery Fee
Representative-Assisted Expedited Payment Fee

F40
or the amount of the required minimum payment, whichever
$20.00
is less, if you are one or more days late in making a payment.
F41
or the amount of the required minimum payment, whichever
$25.00
is less.
F42
$12.00
F43
$15.00
F44
$150.00
F45
$65.00
F46
$5.00

DILFZ8 (MXC403 CCM003)-e

